No:

IN THE
SUPREME COURT OF THE UNITED STATES

SAMUEL KWUSHUE, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent

DECLARATION VERIFYING TIMELY FILING

Petitioner, Samuel Kwushue, pursuit of SUP. Ct. R. 29.2 and 28 U.S.C. S 1746,
declares that the Petition for Writ of Certiorari filed in the above styled matter
was sent in an envelope via United States Postal Service for delivery by First class,
Express or Priority Mail, addressed to the Clerk of the Supreme Court of the United
States, on the 15th day of April, 2020, which is before May 10, 2020, the time the
petition for writ of certiorari is due.

Union City, Georgia
April 14, 2020
SAMUEL KWUSHUE
6001 Kahiti Trc, Union City, GA 30291
(404) 477 9905

